2311 Douglas Street
Omaha, Nebraska 68102-1214

iP'OCKLE

E-Mail Address:
contact@cockl el egalbri efs. com

Legal Briefs
Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web-Site
www.cocklelegalbriefs.com

No.
IN RE BRYANT MOORE,
Petitioner,
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of December, 2020, send
out from Omaha, NE 2 package(s) containing 1 copies of the PETITION FOR A WRIT OF MANDAMUS in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
BRYANT MOORE
Pro Se Petitioner
4100 River Rd.
Latham, NY 12110
(240)351-3711
bryant.moore@ymail.com

DEC 3 0 2020
supreme"courtLu!sK

Subscribed and sworn to before me this 22nd day of December, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTAtiY-State of Nttoska
RENEE J. GOSS
**■ My Comm. Exp. September S, 2023

US

Notary Public

Affiant
40048

Clerk, United States Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
J. Matthew Williams
MITCHELL SILBERBERG AND KNUPP LLP
1818 N Street NW, 8th Floor
Washington, DC 20036

